No.
IN THE SUPREME COURT OF THE UNITED STATES
OCTOBER TERM, 2020

LAMAR JOHNSON,

Petitioner,
V.
UNITED STATES OF AMERICA,

Respondent.

On Petition for Writ of Certiorari to the
United States Court of Appeals for the Ninth Circuit

PETITION FOR WRIT OF CERTIORARI
STEVEN G. KALAR
Federal Public Defender
Northern District of California
ROBIN PACKEL *
Assistant Federal Public Defender
1301 Clay Street, Suite 1350N
Oakland, California 94607
(510) 637-3500
Robin_Packel@fd.org

" Counsel of Record for Petitioner

QUESTIONS PRESENTED
This case -- like Greer v. United States, No. 19-8709, cert. granted, 2021 WL
77241 (U.S. Jan. 8, 2021), and United States v. Gary, No. 20-444, cert. granted,
2021 WL 77245 (U.S. Jan. 8. 2021) -- presents questions about how appellate courts
should review unpreserved claims based on Rehaif v. United States, 139 S. Ct. 2191
(2019). The question presented in this case is identical to the one in Greer:
"Whether when applying plain-error review based upon an intervening United

States Supreme Court decision, a circuit court of appeals may review matters
outside the trial record to determine whether the error affected a defendant's
substantial rights or impacted the fairness, integrity, or public reputation of the
trial?"

I

INTERESTED PARTIES
There are no parties to the proceeding other than those named in the caption.
DIRECTLY RELATED PRIOR COURT PROCEEDINGS

United States v. Lamar Johnson, No. 16-cr-00251 WHA (N.D. Cal. June 6, 2017)
United States v. Lamar Johnson, No. 17-10252 (9th Cir. Jan. 9, 2019)
Lamar Johnson v. United States, No. 19-5181 (S. Ct. Oct. 21, 2019)
United States v. Lamar Johnson, No. 17-10252 (9th Cir. June 25, 2020), as
amended, Oct. 26, 2020

II

TABLE OF CONTENTS

QUESTIONS PRESENTED
INTERESTED PARTIES

II

DIRECTLY RELATED PRIOR COURT PROCEEDINGS

II

TABLE OF CONTENTS

III

INDEX TO APPENDIX

III

TABLE OF AUTHORITIES

III

PETITION FOR WRIT OF CERTIORARI

1

OPINIONS BELOW

1

JURISDICTION

1

RELEVANT CONSTITUTIONAL AND STATUTORY PROVISIONS

2

STATEMENT OF THE CASE

3

REASONS FOR GRANTING THE WRIT

6

CONCLUSION

8

INDEX TO APPENDIX

United States v. Johnson, 979 F.3d 632 (9th Cir. Oct. 26, 2020)

1

Johnson v. United States, 140 S. Ct. 440 (Oct. 21, 2019)

8

United States v. Johnson, 913 F.3d 793 (9th Cir. Jan. 9, 2019)

9

III

TABLE OF AUTHORITIES
Federal Cases

Page(s)

Greer v. United States,
No. 19-8709, 2021 WL 77241 (U.S. Jan. 8, 2021)
Johnson v. United States,
140 S. Ct. 440 (Oct. 21, 2019)

I, 6, 8
III, 1, 3

Lockhart v. Nelson,
488 U.S. 33 (1988)

5

Musacchi o v. United States,
136 S. Ct. 709 (2016)

5

Neder v. United States,
527 U.S. 1 (1999)

5

Rehai f v. United States,
139 S. Ct. 2191 (2019)

I, 3

United States v. Atkinson,
990 F.2d 501 (9th Cir. 1993)

6

United States v. Dominguez Benitez,
542 U.S. 74 (2004)

5

United States v. Gary,
No. 20-444, 2021 WL 77245 (U.S. Jan. 8, 2021)
United States v. Johnson,
224 F. Supp. 3d 881 (N.D. Cal. 2016)

I, 7, 8
1

United States v. Johnson,
913 F.3d 793 (9th Cir. 2019)

III, 1

United States v. Johnson,
963 F.3d 847 (9th Cir. 2020)

5

United States v. Johnson,
979 F.3d 632 (9th Cir. 2020)

passim

United States v. Nash-,
982 F.3d 144 (3d Cir. 2020)

7

United States v. Olano,
507 U.S. 725 (1993)

4, 5
IV

United States v. Sineneng-Smith,
140 S. Ct. 1575 (2020)

6

Federal Statutes
18 U.S.C. § 922

passim

18 U.S.C. § 924

2

28 U.S.C. § 1254

1

Constitutional Provisions
U.S. Const. amend. V

2

U.S. Const. amend. VI

2

V

PETITION FOR WRIT OF CERTIORARI

Petitioner Lamar Johnson respectfully petitions for a writ of certiorari to review
the judgment of the United States Court of Appeals for the Ninth Circuit. Because
the Court already has granted certiorari in two cases that raise identical or related
issues, he specifically asks the Court to hold his petition until it decides Greer and

Gary.
OPINIONS BELOW
The district court's published opinion denying Mr. Johnson's motion to
suppress is reported at United States v. Johnson, 224 F. Supp. 3d 881 (N.D. Cal.
2016). The Ninth Circuit's published opinion affirming the denial of Mr. Johnson's
motion to suppress and affirming his conviction is reported at United States v.

Johnson, 913 F.3d 793 (9th Cir. 2019), and attached at Appendix ["App."] 9. This
Court's order granting Mr. Johnson's prior petition for writ of certiorari, vacating
the judgment below and remanding to the Ninth Circuit for further consideration in
light of Rehai f; is reported at 140 S. Ct. 440 (Oct. 21, 2019), and attached at App. 8.
The Ninth Circuit's published opinion on remand is reported, as amended on denial
of rehearing and rehearing en banc, at United States v. Johnson, 979 F.3d 632 (9th
Cir. Oct. 26, 2020), and attached at App. 1.
JURISDICTION
The Ninth Circuit issued its amended opinion and denied rehearing on October
26, 2020. App. 1, 3. This Court has jurisdiction under 28 U.S.C. § 1254(1). This

petition is timely under Supreme Court Rule 13.3 and the Court's Order of March
19, 2020 regarding filing deadlines.
RELEVANT CONSTITUTIONAL AND STATUTORY PROVISIONS
The Fifth Amendment to the United States Constitution guarantees, among
other rights, "No person shall. . . be deprived of life, liberty, or property, without
due process of law . . . ."
The Sixth Amendment to the United States Constitution guarantees, among
other rights:
In all criminal prosecutions, the accused shall enjoy the right to a
speedy and public trial, by an impartial jury. . , and to be informed of
the nature and cause of the accusation; to be confronted with the
witnesses against him; to have compulsory process for obtaining
witnesses in his favor, and to have the Assistance of Counsel for his
defence.
Title 18 of the United States Code, Section 922, provides, in relevant part:
(g) It shall be unlawful for any person -(1) who has been convicted in any court of, a crime punishable by
imprisonment for a term exceeding one year;

to . . . possess in or affecting commerce, any firearm or ammunition . . . .
Title 18 of the United States Code, Section 924(a)(2), states in relevant part,
"Whoever knowingly violates subsection. . . (g) . . . of section 922 shall be fined as
provided in this title, imprisoned not more than 10 years, or both."

2

STATEMENT OF THE CASE
Mr. Johnson was found guilty of drug offenses and two counts of being a felon in
possession of a firearm, in violation of 18 U.S.C. § 922(0(1), at a stipulated-facts
bench trial in February 2017. The only evidence introduced at his bench trial that
was relevant to § 922(g)(1)'s prior-conviction element was the stipulation that,
before his possession of the charged firearms, Mr. Johnson "had been convicted of a
felony, i.e., a crime punishable by imprisonment for a term exceeding one year."

United States v. Johnson, 979 F.3d 632, 635 (9th Cir. 2020) (internal quotation
marks omitted). After the Ninth Circuit affirmed his convictions and sentence, this
Court decided Re.haif. Re.hai fheld, contrary to prior circuit precedent, that "a
defendant may be convicted under § 922(g) only if the government proves that the
defendant 'knew he belonged to the relevant category of persons barred from
possessing a firearm' -- in our case, those convicted of a crime punishable by more
than one year of imprisonment." Id. at 634-35 (quoting Rehalf; 139 S. Ct. at 2200).
Mr. Johnson argued for the first time in his previous petition for writ of
certiorari that Re.halfrequired reversal of his two § 922(0(1) convictions "for
insufficient evidence" of knowledge. Johnson v. United States, No. 19-5181, Petition
for Certiorari at i (S. Ct. July 12, 2019). The government agreed that the Court
should grant the petition, vacate the Ninth Circuit's decision and remand for
further consideration in light of Rehaif Id., Brief for the United States at 26-27 (S.
Ct. Sept. 16, 2019). The Court did so. Johnson v. United States, 140 S. Ct. 440
(Oct. 21, 2019).

3

On remand, after supplemental briefing and oral argument, the Ninth Circuit
affirmed Mr. Johnson's § 922(0(1) convictions. Johnson, 979 F.3d at 635. Because
Mr. Johnson had not explicitly challenged the sufficiency of the evidence in the
district court, the Ninth Circuit reviewed for plain error. Id. at 635-36. It held that
there was Rehalferror, and it was plain after Rehalf. Id. at 636. The Ninth Circuit
assumed that the error "affected Johnson's substantial rights." Id. The first three
prongs of the plain-error standard thus were satisfied; "Only the fourth prong
remains in dispute." Id.
For the fourth plain-error prong, the Ninth Circuit considered whether "the
district court's error seriously affect[ed] the fairness, integrity, or public reputation
of judicial proceedings." Id.; see United States v. Olano, 507 U.S. 725, 736 (1993)
(applying standard to determine whether appellate court should correct forfeited
plain error that affects substantial rights). The Ninth Circuit acknowledged that, if
its fourth-prong analysis was "limited to considering the trial record alone, as
Johnson urges, his case for reversal appears strong." Id. at 637. With only the
stipulation about the fact of his prior conviction, "a rational trier of fact would be
hard pressed to infer that Johnson knew of his prohibited status as required under

Rehaif. And that failure of proof might well be deemed to affect the fairness or
integrity of the judicial proceedings resulting in his convictions." Id.
But the Ninth Circuit concluded that it was not limited to the trial record. Id.
"Because Johnson's challenge is properly understood as a claim of trial error, retrial
would be permitted even if he succeeded in establishing plain error on appeal." Id.
To avoid 'wasteful reversals' in this situation, the Ninth Circuit reasoned, "a
4

defendant must offer a plausible basis for concluding that an error-free retrial
might end more favorably." Id. (quoting United States v. Dominguez Benitez, 542
U.S. 74, 82 (2004)).
The Ninth Circuit thus considered three prior convictions noted in the
Presentence Report for which Mr. Johnson had been sentenced to 24 or 28 months
in prison. Id. at 638-39. Given these facts, which Mr. Johnson did not dispute at
sentencing, he "cannot plausibly argue that a jury. . . would find that he was
unaware of his status as someone previously convicted of an offense punishable by
more than a year in prison." Id. at 639. The Ninth Circuit thus declined to reverse
his § 922(g)(1) convictions despite the plain Rehai ferror that affected his
substantial rights.
Mr. Johnson petitioned for rehearing and rehearing en banc, arguing that the
Ninth Circuit's decision conflicted with the Court's decisions in Musacchio v. United

States, 136 S. Ct. 709 (2016), Neder v. United States, 527 U.S. 1 (1999), and
Lockhart v. Nelson, 488 U.S. 33 (1988), and violated his Fifth Amendment right to
due process and Sixth Amendment rights to trial, notice, confrontation, process,
counsel and jury.
The Ninth Circuit's original opinion addressed Mr. Johnson's challenge to his §
922(0(1) convictions as an insufficient-evidence argument, which was how he raised
it. Johnson, 979 F.3d at 636; United States v. Johnson, 963 F.3d 847, 850, 851, 852,
854 (9th Cir. 2020). An amicus brief submitted with his petition for rehearing
questioned whether plain error properly applied, because circuit precedent had
"held that a defendant who pleads not guilty and proceeds to a bench trial need not
5

move for a judgment of acquittal in order to preserve a challenge to the sufficiency
of the evidence." Johnson, 979 F.3d at 635-36 (summarizing United States v.

Atkinson, 990 F.2d 501 (9th Cir. 1993) (en bane)). The Ninth Circuit got around the
Atkinson problem in its amended opinion by construing Mr. Johnson's argument not
as an insufficiency argument but instead as an argument "that the district court
applied the wrong legal standard in assessing his guilt." Id. at 636; cf. United

States v. Sineneng-Smith, 140 S. Ct. 1575, 1578 (2020) ("remand[ing to the Ninth
Circuit] for an adjudication of the appeal attuned to the case shaped by the parties
rather than the case designed by the appeals panel."). Having so re-characterized
Mr. Johnson's argument, the Ninth Circuit "reaffirm[ed its] conclusion that Rule
52(b)'s plain-error standard governs," affirmed his § 922(g)(1) convictions and
denied rehearing. Johnson, 979 F.3d at 634, 636, 639.
REASONS FOR GRANTING THE WRIT
The Court should grant the writ because the issue presented here is identical to
the one on which the Court granted review in Greer. The Court will consider in

Greer whether appellate courts' plain-error review may rely on "matters outside the
trial record to determine whether the error affected a defendant's substantial rights
or impacted the fairness, integrity, or public reputation of the trial." The Ninth
Circuit in this case identified this question as "[t]he central issue we must decide."

Johnson, 979 F.3d at 637.
The Ninth Circuit's plain-error reliance on matters outside the trial record, as
well as its refusal to address Mr. Johnson's argument as a challenge to the
sufficiency of the evidence, also conflicts with a recent en banc decision of the Third
6

Circuit. United States v. Nasir, 982 F.3d 144, 162-63, 176 & 168 n.26 (3d Cir. 2020)
(en banc); see id. at n.25 (noting disagreement with Johnson). "We conclude that,
even on plain-error review, basic constitutional principles require us to consider
only what the government offered in evidence at the trial, not evidence it now
wishes it had offered." Id. at 162. Because the trial evidence was insufficient to
prove the "newly found element of the crime," id. at 160, "Nasir's substantial rights
were thus definitely affected by his conviction upon proof of less than all of the
elements of the offense outlawed by § 922(g), and he has carried his burden at

Olano step three." Id. at 174. For the plain-error fourth prong, the same
fundamental constitutional principles required the court to exercise its discretion to
recognize the plain error and reverse the § 922(0(1) conviction. Id. at 175-76. Had
Mr. Johnson's case been heard in the Third Circuit, he too would have been entitled
to reversal of his § 922(0(1) convictions.
This Court's decision in Gary also may affect Mr. Johnson's case. The question
presented in that case is, "Whether a defendant who pleaded guilty to possessing a
firearm as a felon, in violation of 18 U.S.C. 922(0(1) and 924(a), is automatically
entitled to plain-error relief if the district court did not advise him that one element
of that offense is knowledge of his status as a felon, regardless of whether he can
show that the district court's error affected the outcome of the proceedings."
Although Mr. Johnson had a stipulated-facts bench trial instead of pleading guilty,
the district court's colloquy was "pretty close to the same inquiry I would make on a
guilty plea." 9th Cir. Dkt. 63 (GSER 003); see also id. (GSER 009 ("Now that I've
read what the evidence is going to be on the stipulated facts, I can see that this
7

would require me to find a guilty verdict.")); id. (GSER013 (finding that Johnson's
jury-trial waiver was "voluntary and informed")). This Court's decision in Gary
about whether Rehai ferror is structural, or whether — and, if so, how -- a defendant
needs to show prejudice to obtain relief, may affect the outcome of this case.
CONCLUSION
For these reasons, the Court should grant this petition for a writ of certiorari
and hold this case pending its decisions in Greer and Gary.
Respectfully submitted,
STEVEN G. KALAR
Federal Public Defender
Northern District of California

February 12, 2021
ROBIN PACKEL
Assistant Federal Public Defender

8

